(202) 223-7325
(202) 204-7397
kshanmugam@paulweiss.com

April 21, 2020

BY ELECTRONIC FILING
Mr. Scott Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

BP p.l.c., et al. v. Mayor and City Council of Baltimore, No. 19-1189

Dear Mr. Harris:
I am counsel of record for petitioners in the above-captioned matter. I am
writing in response to respondent’s motion to extend by 60 days (to June 29, 2020)
the time for filing a brief in opposition to the petition for a writ of certiorari in this
case. As respondent noted in its motion, petitioners have consented to a 30-day extension of that time. Consistent with this Court’s March 19 order, petitioners understand the disruptions caused by the COVID-19 pandemic and respect respondent’s need for additional time to prepare a response under these circumstances.
At the same time, there are countervailing considerations specific to this case
that warrant granting respondent a somewhat shorter extension than it requests.
As explained in greater detail in the petition, respondent is actively litigating this
case in state court, and nearly identical climate-change cases are proceeding against
petitioners in other state courts. See Pet. 22-23. And even since the petition in this
case was filed (on March 31), respondent has served extensive document requests
and filed substantive briefing in the underlying state-court litigation. Because resolution of the question presented here would help finally to resolve whether this case
and others like it belong in federal or state court, petitioners filed the petition in this
case expeditiously—just 25 days after the court of appeals’ decision.
Should the Court grant a 30-day extension rather than a 60-day one, it would
enable the Court to consider the petition before the scheduled summer recess. An

2
extension of 60 days, however, would delay consideration of the petition until next
Term.
Petitioners respectfully submit that a 30-day extension should provide respondent with sufficient time to prepare a response. The petition in this case presents a single question; respondent fully briefed that question below; and counsel of
record for respondent has also briefed that question in currently pending litigation
against petitioners in the First and Ninth Circuits. See Resp. C.A. Br. 8-14; Br. of
Appellee at 6-11, Rhode Island v. Shell Oil Products Co., No. 19-1818 (1st Cir. filed
Dec. 26, 2019); Mot. for Partial Dismissal at 14-22, County of San Mateo v. Chevron
Corp., No. 18-15499 (9th Cir. filed June 6, 2018; argued Feb. 5, 2020). For the foregoing reasons, petitioners request that the Court grant respondent’s motion for an
extension of time, but only for an additional 30 days. (Because the 30th day is Saturday, May 30, the Court may wish to extend the deadline to Monday, June 1.)
Yours sincerely,
Kannon K. Shanmugam
cc:

Victor M. Sher, Esq. (by electronic mail)

